No. 19-783
IN THE SUPREME COURT OF THE UNITED STATES
_________________
NATHAN VAN BUREN, PETITIONER
v.
UNITED STATES OF AMERICA
_________________
CERTIFICATE OF SERVICE
It is hereby certified that all parties required to be served have been served with copies of
the BRIEF FOR THE UNITED STATES IN OPPOSITION, via email and first-class mail,
postage prepaid, this 10th day of March, 2020.
[See Attached Service List]
As required by Supreme Court Rule 33.1(h), I certify that the document contains 4853 words,
excluding the parts of the document that are exempted by Supreme Court Rule 33.1(d). I declare
under penalty of perjury that the foregoing is true and correct.
Executed on March 10, 2020.

Noel J. Francisco
Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-0001
(202) 514-2217
March 10, 2020
Due to the continuing delay in receiving incoming mail at the Department of Justice, in
addition to mailing your brief via first-class mail, we would appreciate a fax or email copy of
your brief. If that is acceptable to you, please fax your brief to Charlene Goodwin, Supervisor,
Case Management Specialist, Office of the Solicitor General, at (202) 514-8844, or email at
SupremeCtBriefs@USDOJ.gov. Ms. Goodwin’s phone number is (202) 514-2217 or 2218.
Thank you for your consideration of this request.

19-0783
VAN BUREN, NATHAN
USA

CLIFFORD W. BERLOW
JENNER & BLOCK
353 NORTH CLARK STREET
CHICAGO, IL 60654-3456
312-840-7366
CBERLOW@JENNER.COM
ANDREW CROCKER
ELECTRONIC FRONTIER FOUNDATION
815 EDDY STREET
SAN FRANCISCO , CA 94109
415-436-9333
ANDREW@EFF.ORG
JEFFREY L. FISHER
STANFORD LAW SCHOOL SUPREME COURT
CLINIC
559 NATHAN ABBOTT WAY
STANFORD, CA 94305
650-724-7081
JLFISHER@STANFORD.EDU
REBECCA SHEPARD
FEDERAL DEFENDER PROGRAM
101 MARIETTA STREET, NW
SUITE 1500
ATLANTA, GA 30303
404-688-7530
REBECCA_SHEPARD@FD.ORG

SARALIENE SMITH DURRETT
SARALIENE SMITH DURRETT, LLC
1800 PEACHTREE STREET
SUITE 300
ATLANTA, GA 30309

